APPENDIX A

United States v. Galindo-Caballero,
No. 19-50788 (5th Cir. Apr. 2, 2020)
(per curiam)

Case: 19-50788

Document: 00515369463

Page: 1

Date Filed: 04/02/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

No. 19-50788
Summary Calendar

FILED
April 2, 2020
Lyle W. Cayce
Clerk

UNITED STATES OF AMERICA,
Plaintiff-Appellee
v.
JAVIER GALINDO-CABALLERO,
Defendant-Appellant
Appeal from the United States District Court
for the Western District of Texas
USDC No. 2:19-CR-82-1
Before JOLLY, JONES, and SOUTHWICK, Circuit Judges.
PER CURIAM: *
Javier Galindo-Caballero appeals the 54-month sentence imposed
following conviction based on his guilty plea of illegal reentry after having been
previously removed.

He argues that his sentence was imposed under an

unconstitutional statute, 8 U.S.C. § 1326(b). Specifically, he contends that in
order to trigger a sentencing enhancement under Section 1326(b), the fact of a
prior conviction must be alleged in the indictment and proven to a jury;

Pursuant to 5TH CIR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH
CIR. R. 47.5.4.
*

Case: 19-50788

Document: 00515369463

Page: 2

Date Filed: 04/02/2020

No. 19-50788
therefore, he asserts that Section 1326(b) is unconstitutional. He correctly
concedes that his argument is foreclosed by Almendarez-Torres v. United
States, 523 U.S. 224 (1998), but he makes the argument to preserve it for
further possible review. See United States v. Wallace, 759 F.3d 486, 497 (5th
Cir. 2014); United States v. Pineda-Arrellano, 492 F.3d 624, 625–26 (5th Cir.
2007).
The Government has filed an unopposed motion for summary affirmance
and, alternatively, seeks an extension of time to file its brief. Because the issue
is foreclosed, summary affirmance is appropriate. See Groendyke Transp., Inc.
v. Davis, 406 F.2d 1158, 1162 (5th Cir. 1969).
Accordingly, the Government’s motion for summary affirmance is
GRANTED, the Government’s alternative motion for an extension of time to
file a brief is DENIED, and the judgment of the district court is AFFIRMED.

2

APPENDIX B
United States v. Galindo-Caballero,
Indictment,
No. 2:19-cr-00082-ILL
(W.D. Tex. Jan. 9, 2019)

Case 2:19-cr-00082-ILL Document 8 Filed 01/09/19 Page 1 of 2

DEDACTED

Fl

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF TEXAS
DEL RIO DIVISION

UNITED STATES OF AMERICA

v.

§

Cause No.:

§

INDICTMENT

9

E

Jj _9

0

}DjI

I L

:

TE.;:.

§
§
§

JAVIER GALINDO-CABALLERO

[Vio: 8 U.S.C.

§ 1326(a) & (b)(1)I(2):
Illegal Re-entry into the United States.]

§
§

DR19CROO82
THE GRAND JURY CHARGES:
COUNT ONE
[8 U.S.C. § 1326(a) & (b)(1)/(2)]

That on or about December 10, 2018, in the Western District of Texas, Defendant,

JAVIER GALINDO-CABALLERO,
an alien, attempted to enter, entered, and was found in the United States having previously been

denied admission, excluded, deported and removed from the United States on or about December
5, 2016, and that the Defendant had not received the consent of the Attorney General of the United

States and the Secretary of the Department of Homeland Security, to reapply for admission to the

United States, in violation of Title 8, United States Code, Section 1326(a) and (b)(l)/(2).

EUf*tUI
FOREPERSON

29

J

JOHN F. BASH
United States &

Vt!
19-50788.15

APPENDIX C
8 U.S.C. § 1326

§ 1326. Reentry of removed aliens, 8 USCA § 1326

KeyCite Yellow Flag - Negative Treatment
Proposed Legislation

United States Code Annotated
Title 8. Aliens and Nationality (Refs & Annos)
Chapter 12. Immigration and Nationality (Refs & Annos)
Subchapter II. Immigration
Part VIII. General Penalty Provisions
8 U.S.C.A. § 1326
§ 1326. Reentry of removed aliens
Effective: September 30, 1996
Currentness
(a) In general
Subject to subsection (b), any alien who--

(1) has been denied admission, excluded, deported, or removed or has departed the United States while an order of
exclusion, deportation, or removal is outstanding, and thereafter

(2) enters, attempts to enter, or is at any time found in, the United States, unless (A) prior to his reembarkation at
a place outside the United States or his application for admission from foreign contiguous territory, the Attorney
General has expressly consented to such alien's reapplying for admission; or (B) with respect to an alien previously
denied admission and removed, unless such alien shall establish that he was not required to obtain such advance
consent under this chapter or any prior Act,
shall be fined under Title 18, or imprisoned not more than 2 years, or both.

(b) Criminal penalties for reentry of certain removed aliens
Notwithstanding subsection (a), in the case of any alien described in such subsection--

(1) whose removal was subsequent to a conviction for commission of three or more misdemeanors involving drugs,
crimes against the person, or both, or a felony (other than an aggravated felony), such alien shall be fined under Title
18, imprisoned not more than 10 years, or both;

(2) whose removal was subsequent to a conviction for commission of an aggravated felony, such alien shall be fined
under such title, imprisoned not more than 20 years, or both;

(3) who has been excluded from the United States pursuant to section 1225(c) of this title because the alien was
excludable under section 1182(a)(3)(B) of this title or who has been removed from the United States pursuant to the

© 2018 Thomson Reuters. No claim to original U.S. Government Works.

1

§ 1326. Reentry of removed aliens, 8 USCA § 1326

provisions of subchapter V, and who thereafter, without the permission of the Attorney General, enters the United
States, or attempts to do so, shall be fined under Title 18 and imprisoned for a period of 10 years, which sentence shall
not run concurrently with any other sentence. 1 or

(4) who was removed from the United States pursuant to section 1231(a)(4)(B) of this title who thereafter, without
the permission of the Attorney General, enters, attempts to enter, or is at any time found in, the United States (unless
the Attorney General has expressly consented to such alien's reentry) shall be fined under Title 18, imprisoned for not
more than 10 years, or both.
For the purposes of this subsection, the term “removal” includes any agreement in which an alien stipulates to removal
during (or not during) a criminal trial under either Federal or State law.

(c) Reentry of alien deported prior to completion of term of imprisonment
Any alien deported pursuant to section 1252(h)(2) 2 of this title who enters, attempts to enter, or is at any time found in,
the United States (unless the Attorney General has expressly consented to such alien's reentry) shall be incarcerated for
the remainder of the sentence of imprisonment which was pending at the time of deportation without any reduction for
parole or supervised release. Such alien shall be subject to such other penalties relating to the reentry of deported aliens
as may be available under this section or any other provision of law.

(d) Limitation on collateral attack on underlying deportation order
In a criminal proceeding under this section, an alien may not challenge the validity of the deportation order described
in subsection (a)(1) or subsection (b) unless the alien demonstrates that--

(1) the alien exhausted any administrative remedies that may have been available to seek relief against the order;

(2) the deportation proceedings at which the order was issued improperly deprived the alien of the opportunity for
judicial review; and

(3) the entry of the order was fundamentally unfair.

CREDIT(S)
(June 27, 1952, c. 477, Title II, ch. 8, § 276, 66 Stat. 229; Pub.L. 100-690, Title VII, § 7345(a), Nov. 18, 1988, 102
Stat. 4471; Pub.L. 101-649, Title V, § 543(b)(3), Nov. 29, 1990, 104 Stat. 5059; Pub.L. 103-322, Title XIII, § 130001(b),
Sept. 13, 1994, 108 Stat. 2023; Pub.L. 104-132, Title IV, §§ 401(c), 438(b), 441(a), Apr. 24, 1996, 110 Stat. 1267, 1276,
1279; Pub.L. 104-208, Div. C, Title III, §§ 305(b), 308(d)(4)(J), (e)(1)(K), (14)(A), 324(a), (b), Sept. 30, 1996, 110 Stat.
3009-606, 3009-618 to 3009-620, 3009-629.)

Notes of Decisions (1300)

© 2018 Thomson Reuters. No claim to original U.S. Government Works.

2

§ 1326. Reentry of removed aliens, 8 USCA § 1326

Footnotes
So in original. The period probably should be a semicolon.
1
So in original. Section 1252 of this title, was amended by Pub.L. 104-208, Div. C, Title III, § 306(a)(2), Sept. 30, 1996, 110
2
Stat. 3009-607, and as so amended, does not contain a subsec. (h); for provisions similar to those formerly contained in section
1252(h)(2) of this title, see 8 U.S.C.A. § 1231(a)(4).

8 U.S.C.A. § 1326, 8 USCA § 1326
Current through P.L. 115-173. Also includes P.L. 115-176 to 115-178. Title 26 current through 115-182.
End of Document

© 2018 Thomson Reuters. No claim to original U.S. Government Works.

© 2018 Thomson Reuters. No claim to original U.S. Government Works.

3

